RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-1212
Chad F. Wolf, Acting Secretary of Homeland Security, et al.,
Petitioners,
v.
Innovation Law Lab, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Christopher M. Egleson,
certify that the Brief for Professor Mila Sohoni as Amica Curiae in Support of
Respondents in the foregoing case contains 7,992 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 22, 2021.
/s/ Christopher M. Egleson
CHRISTOPHER M. EGLESON
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, CA 90013
(213) 896-6108

